U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 18, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Publishers Business Services, Inc., et al. v. Federal Trade Commission,
S.CtNo. 19-507

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 18,
2019, and placed on the docket on October 18, 2019. The government's response is due on
November 18, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 18, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0507
PUBLISHERS BUSINESS SERVICES, INC., ET AL.
FTC

CORBIN K. BARTHOLD
WASHINGTON LEGAL FOUNDATION
2009 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20036
CBARTHOLD@WLF,ORG
CYNTHIA FLEMING CRAWFORD
CAUSE OF ACTION INSTITUTE
1875 EYE STREET, NW
SUITE 800
WASHINGTON, DC 20006
202-499-4232
CYNTHIA.CRAWFORD@CAUSEOFACTION.OR
G
PETER W. HOMER
HOMER BONER JACOBS
1200 FOUR SEASONS TOWER
1441 BRICKELL AVENUE
MIAMI, FL 33131
305-350-5100
PHOMER@HOMERBONNER.COM

